Report No. D-2008-096            May 20, 2008




Identification and Reporting of Improper Payments
          by the Defense Logistics Agency
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms

DFAS                  Defense Finance and Accounting Service
DLA                   Defense Logistics Agency
DSCP                  Defense Supply Center Philadelphia
FMR                   Financial Management Regulation
GAO                   Government Accountability Office
MOCAS                 Mechanization of Contract Administration Services
IG                    Inspector General
OMB                   Office of Management and Budget
                              INSPECTOR GENERAL
                            DEPARTMENT OF DEFENSE
                             400 ARMY NAVY DRIVE
                        ARLINGTON, VIRGINIA 22202-4704




                                                                            May 20, 2008

MEMORANDUM FOR DIRECTOR, DEFENSE LOGISTICS AGENCY


SUBJECT: Report on Identification and Reporting of Improper Payments by the Defense
         Logistics Agency (Report No. D-2008-096)


         We are providing this report for your information and use. No written response to
this report was required and none was received. Therefore, we are publishing this report
in final form.

        We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. James L. Komides at (614) 751-1400 extension 211 or Mr. Curt W. Malthouse at
(614) 751-1400 extension 230. Ifmanagement requests, we will provide a formal
briefing on the results. See Appendix C for the report distribution.



                           !~ a.1J1 cw1v
                          Patricia A. Marsh, CPA
                        Assistant Inspector General
                     Defense Financial Auditing Service
                Department of Defense Office of Inspector General

Report No. D-2008-096                                                       May 20, 2008
   (Project No. D2007-D000FJ-0079.000)

             Identification and Reporting of Improper Payments
                       by the Defense Logistics Agency

                                  Executive Summary
Who Should Read This Report and Why? Defense Logistics Agency financial
managers responsible for identifying and reducing improper payments should read this
report. It discusses areas in which Defense Logistics Agency can more accurately
identify and provide useful information about improper payments in its financial
statements.

Background. The DoD Financial Management Regulation requires reporting entity
management to prepare and submit audited financial statements that include Improper
Payment Information Act reporting details. It requires management to describe the
Component’s risk assessment, list the risk-susceptible programs, describe the statistical
sampling process conducted to estimate the improper payment rate for each program, and
describe the corrective action plans for reducing the estimated rate of improper payments.
This audit evaluated whether the Defense Logistics Agency FY 2006 Financial
Statements contained the required reporting information and evidence that the Defense
Logistics Agency determined whether it incurred improper payments associated with the
$35.2 billion it spent during FY 2006 providing logistics support to the Military
Departments and its other customers.

Results. The Defense Logistics Agency did not:

       •   Provide information on improper payments associated with its operations in
           its FY 2006 Financial Statements.

       •   Respond to a survey DoD used to collect information on improper payment
           amounts.

       •   Perform risk assessments related to the susceptibility of Defense Logistics
           Agency programs to significant improper payments.

Documentation showed that the Defense Logistics Agency could have identified and
reported about $93.3 million in improper payments associated with its programs in its
FY 2006 Financial Statements. The Defense Logistics Agency needs to establish a
process to identify and report improper payments related to contractor and vendor
payments in each Defense Logistics Agency program. Additionally, the Defense
Logistics Agency needs to identify and report the value of improper transportation
payments, improper payments on fast pay contracts, and improper payments identified
during its contract closeout process. Unless it improves its identification and reporting
process, the Defense Logistics Agency cannot show that it is making progress in reducing
the amount of improper payments and correcting payment problems in programs that are
at significant risk for improper payments. The Defense Logistics Agency also could not
identify the value of debts collected from contractors (see the Finding for details).

Management Comments. We provided a draft of this report on March 21, 2008. No
written response to this report was required and none was received. Therefore, we are
publishing this report in final form.

Management Actions. During the audit, Defense Logistics Agency personnel agreed to
provide information in the FY 2008 Financial Statements on planned actions to identify
improper payments. The agreement was too late for the Defense Logistics Agency to
provide the information in its FY 2007 Financial Statements. The Defense Logistics
Agency identified four areas at risk for significant improper payments for FY 2007:
Customer Pay, Integrated Prime Vendor, Fast Pay Contracts, and Contract Closeout. The
Defense Logistics Agency agreed to develop an Improper Payment Plan that includes
documenting those processes; developing a sampling plan to estimate improper
payments; and reporting on each of these areas. The Defense Logistics Agency will also
develop an action plan to improve its contract-closeout process. As a result of the
Defense Logistics Agency planned actions, we did not make recommendations in this
report.




                                           ii
Table of Contents

Executive Summary                                                     i

Background                                                            1

Objectives                                                            1

Finding
     Defense Logistics Agency Improper Payments Identification and
          Reporting                                                   3

Appendixes
     A. Scope and Methodology                                        12
         Prior Coverage                                              13
     B. Sampling Methodology                                         15
     C. Report Distribution                                          16
Background

    The Defense Logistics Agency (DLA) is a primary provider of logistics support to
    the Military Departments and Defense Agencies. The DLA FY 2006 Financial
    Statements showed that DLA spent $35.2 billion during FY 2006 providing
    logistics support to its customers. DLA used the Defense Finance and
    Accounting Service (DFAS) to make the payments for the items DLA item
    managers purchased.

    DoD Financial Management Regulation (FMR) 7000.14-R, volume 6B, chapter 1,
    April 2007, requires DLA (a DoD Component) to prepare annual internal stand-
    alone financial statements and have those statements audited to the extent they
    believe they are reliable. In addition, the FMR requires Improper Payments
    Information Act reporting details to be included, as applicable, as part of the
    annual statements. To produce those statements, the DLA needed to conform to
    the requirements of FMR, volume 6B, chapter 2, January 2006, which requires
    DLA to provide information on the amount of improper payments that are
    associated with its operations each year.

    The DoD FMR, volume 6B, chapter 3, paragraph 030302, “Improper Payment
    Information Act Reporting Details,” requires management to perform the
    following steps to identify and report improper payments:

        •    describe the Component’s risk assessment performed subsequent to
             compiling its full program inventory,

        •    list the risk-susceptible programs identified through the risk assessment,

        •    describe the statistical sampling process conducted to estimate the
             improper payment rate for each program, and

        •    describe the corrective action plans for reducing the estimate rate of
             improper payments.


Objectives

    This audit evaluated whether the DLA FY 2006 Financial Statements contained
    evidence that DLA determined whether it incurred improper payments associated
    with the $35.2 billion it spent during FY 2006 providing logistics support to the
    Military Departments and its other customers. We also assessed compliance with
    applicable laws and regulations. See Appendix A for a discussion of the scope
    and methodology and prior coverage related to the objectives.

                                          1
Review of Internal Controls

  We identified internal control weakness for DLA as defined by DoD
  Instruction 5010.40, “Managers’ Internal Control Program Procedures,”
  January 4, 2006. DLA did not have effective internal controls over the
  identification and reporting of DLA improper payments. DLA identified four
  areas at risk for significant improper payments: Customer Pay, Integrated Prime
  Vendor, Fast Pay Contracts, and Contract Closeout. DLA agreed to develop an
  Improper Payment Plan that includes documenting those processes; developing a
  sampling plan to estimate improper payments; and report on each of these areas.
  DLA will also develop an action plan to improve its contract-closeout process. If
  the agreed upon actions are completed, DLA will correct the internal control
  weaknesses related to the identification and reporting of improper payments.




                                      2
           Defense Logistics Agency Improper
           Payments Identification and Reporting
           DLA did not provide information on its improper payments in its FY 2006
           financial statements, did not respond to a survey DoD used to collect
           information about improper payments, and did not perform risk
           assessments related to the susceptibility of DLA programs to significant
           improper payments. We estimated that DLA could have identified and
           reported about $93.3 million in improper payments associated with its
           FY 2005 and FY 2006 operations in its FY 2006 financial statements.
           These conditions existed because DLA did not establish a process to
           identify and report on improper payments related to contractor and vendor
           payments and analyze payments by DLA program. Additionally, it did
           not have a process in place to identify or report on the value of improper
           transportation payments, improper payments on fast pay contracts, and
           improper payments identified during the contract closeout process. Unless
           it improves its identification and reporting process, DLA cannot show that
           it is making progress in reducing the amount of DLA improper payments
           and correcting payment problems in programs that are at significant risk
           for improper payments. DLA also could not identify the value of debts
           collected from contractors. During the audit, DLA stated it would include
           information in its annual statement of assurance on improper payments
           that will explain the status of planned actions to identify improper
           payments. Because of DLA’s planned actions, this report does not make
           recommendations.


Information on Improper Payments in the DLA Financial
   Statements

    DLA personnel did not prepare information on the improper payments associated
    with DLA operations and report on them in the FY 2006 Financial Statements.
    They stated that DFAS was the paying office on most of the DLA contractor and
    vendor payments and DFAS would have better information than DLA about the
    amount of improper payments associated with DLA operations.

    The DoD FMR 7000.14-R, volume 6B, chapter 2, “General Instructions for the
    Financial Statements,” section 020101, January 2006, identifies the officials that
    are primarily responsible for preparation of each section of the financial
    statement. Officials responsible for the improper payments section of financial
    statements include officials from the Office of the Under Secretary of Defense
    (Comptroller)/Chief Financial Officer, DFAS, the U.S. Army Corps of Engineers

                                         3
           Accounting Activity, and the Reporting Entity Management. The DoD FMR
           includes the DLA as one of the reporting entities and Other Defense Organization
           sub-entities for which the management is responsible for collecting financial
           information.

           DLA needs to identify and report information on its improper payments in its
           financial statements. It needs to establish a process to collect the information so
           that it could focus on evaluating each improper payment to determine its cause
           and remedy. Initial reporting can be used as a baseline from which DLA could
           measure progress in managing and reducing the improper payments, including
           searching for causes and correcting processes that may not be directly attributable
           or controlled by DLA.


Responding to the Improper Payment Survey

           In FYs 2005 and 2006, the Office of the Under Secretary of Defense
           (Comptroller)/Chief Financial Officer mailed a survey to the Directors of Defense
           Agencies in the Department that required them to submit information on the
           amount of improper payments associated with each of the agencies’ programs.
           DLA personnel did not respond to the survey and did not believe it was required
           or necessary since they did not operate any payment systems. DLA personnel
           indicated that DFAS Columbus provided survey data for DLA’s payment
           systems. The survey refers to, and included as an attachment, Office of
           Management and Budget (OMB) guidance 1 for identifying and reporting
           improper payments. The OMB guidance requires each agency head to annually
           review all programs and activities that it administers and identify all such
           programs and activities that may be susceptible to significant improper payments.

           During the audit, DLA management informed us that in the future they planned to
           comply with the OMB guidance and the FMR. Specifically, on October 17, 2007,
           DLA provided information that showed DLA began developing an Improper
           Payments Plan and the actions needed to create one. This plan will include a
           process for collecting information for submission to the Office of the Under
           Secretary of Defense (Comptroller)/Chief Financial Officer. It was too late for
           DLA to include this information in their annual statement of assurance or correct
           the FY 2007 Financial Statement information.




1
    OMB Memorandum M-06-23, subject “Issuance of Appendix C to OMB Circular A-123,
    August 10, 2006,” consolidates guidance and reporting requirements for the Improper Payments
    Information Act of 2002.

                                                     4
Performing a Risk Assessment

    Because it had not compiled any information on the amount of improper
    payments, DLA did not perform risk assessments related to the susceptibility of
    DLA programs to significant improper payments as required by the OMB and
    DoD guidance. DLA personnel stated that they believed that the OMB
    requirement to perform a risk assessment applied only to entities that made
    payments. During the audit, DLA personnel indicated that in the future DLA
    would comply with the OMB guidance for performing a risk assessment.

    To comply with the DoD FMR, DLA needs to describe in its financial statements:

        •   the risk assessment it performed subsequent to compiling its full program
            inventory,

        •   the risk-susceptible programs identified through the risk assessment,

        •   the statistical sampling process conducted to estimate the improper
            payment rate for each program, and

        •   the corrective action plans for reducing the estimate rate of improper
            payments.


DFAS Reporting of DLA Improper Payments

    DLA personnel indicated they relied on DFAS Columbus to identify and report
    on improper payments. However, DFAS Columbus was unable to separate DLA
    information from other DoD Components because of the nature of its sampling
    methodology and the volume of payments DFAS Columbus made for DoD.
    DFAS Columbus compiled improper payment information for the DoD-Wide
    Financial Statement Performance and Accountability Report by three broad and
    general categories: travel pay, civilian pay, and commercial pay, but did not
    separate them by entity.

    The DFAS Kansas City Office of Statistical Review provided statistical estimates
    of DoD-wide improper payments on travel pay and civilian pay. In addition,
    although the Statistical Review office’s work included DLA portions of the
    payments, it did not capture DLA improper payments separately or completely.




                                         5
Vendor and Contract Improper Payments

    Although DLA relied on DFAS Columbus to satisfy DLA reporting at the
    Department level, we concluded that the information about DLA that DFAS
    Columbus gathered was incomplete as it related to payments made in vendor pay
    systems and in the Mechanization of Contract Administration Services (MOCAS)
    system.


Reported DLA Improper Payments

    We identified the following improper payments that DLA could have reported in
    its annual financial reports for FYs 2005 and 2006.

                  Table 1. DLA Related Improper Payments
                               ($ in millions)

          System/Program                 Improper Payment Amount
          Vendor Payments                       $58.4
          Contract Payments                      13.2
          Fast Pay Payments                      21.0
          Contract Closeout                        .7
          Total Unreported                      $93.3


    As shown in Table 1, DLA did not report at least $93.3 million in improper
    payments related to four payment systems and programs.

    Vendor Pay Systems. We statistically sampled $1.6 billion in collections
    received from DLA vendors during 2005 and 2006, and we projected that an
    estimated $58.4 million in DLA vendor collections may have been caused by
    improper payments in 2005 and 2006. The type of information we examined was
    available but not used by DLA to determine improper payment amounts because
    DLA did not establish a process in conjunction with DFAS Columbus to analyze
    collections that DFAS Columbus received from DLA vendors and, therefore, did
    not identify the possible improper payments associated with the refunds.

    DFAS Columbus maintained a history of collections from vendors in a database
    called Vendor Check Collection Database. DFAS Columbus provided us an
    extract that included $1.8 billion in collections received from DLA vendors
    during 2005 and 2006. We selected a stratified random sample of 300 items from
    this extract to identify refunds related to improper payments. DFAS Columbus
    provided copies of the collection vouchers and supporting documents for 298 of

                                        6
the sampled collections. DFAS Columbus could not provide documentation on
two of the other items because DFAS Columbus sent the information to records
holding before the audit and it was not readily available.

We reviewed the 298 sample items and the supporting documents to determine
the collection type and whether the collection occurred because of an improper
payment. Of the 298 sampled collections, we determined that 22 were refunds
and 276 were reimbursements. A refund is defined as a payment made in error
and collected by a disbursing officer. Reimbursements are amounts earned and
collected for property sold or services furnished to the public or to another
Government agency. Because reimbursements would not result from improper
payments, we only examined the refunds. Of the 22 refunds, 7 were Federal
excise taxes and 15 were refunds that occurred because of improper payments.
Of those 15 refunds, 11 were unsolicited refunds of overpayments identified by
DLA vendors and 4 were the result of demand letters.

Of the 300 collections/refunds in our sample, we found that 15 refunds resulted
from improper payments. We projected this to the sample population of DLA
collections of $1.6 billion and estimated that population could contain similar
improper payments with an estimated value of $58.4 million.

MOCAS. DFAS Columbus used MOCAS to make a significant number of the
contractor payments for DLA. We used a judgmental sample to identify
$13.2 million in DLA improper payments related to large DoD contractor
payments processed in MOCAS during FYs 2005 and 2006 that were not
included in DLA reporting.

We reviewed 111 of the 246 checks refunded from DLA contractors that DFAS
paid through MOCAS during FYs 2005 and 2006. The aggregate value of the
contracts was $17.1 million. We determined that 85 refunds valued at
$13.2 million should be reported as improper payments based on the
documentation provided by DFAS.

               Table 2. DLA MOCAS Contract Refunds

      Type of Payment           Quantity          Refund Value
    Improper                      85              $13,165,986
    Not Improper                  26                3,944,996
    Total                        111              $17,110,982




                                    7
    The following explain some examples of the improper payments associated with
    refunds from DLA contractors:

           •   DFAS Columbus received a refund of $2.5 million as a result of an
               overpayment for DoD fuel on contract SPO600-02-D-0024 with Kropp
               Holdings, Inc. Documentation showed DFAS charged the wrong
               contract line item number for some fuel invoices. DFAS requested a
               refund of the duplicate payments on two contract line item numbers.

           •   DFAS Columbus received a refund of $1.9 million as a result of an
               overpayment on contract SPO400-12-D-9405 with Pratt and Whitney
               Co. The contractor voluntarily submitted the refund.

           •   DFAS Columbus received a refund of $1.5 million for DoD fuel as a
               result of an overpayment on contract SPO600-02-D0146 with Kropp
               Holdings, Inc. DFAS Columbus had issued a demand letter for the
               overpayment because they had paid the invoice number instead of the
               invoiced quantity in gallons.

    Action Plan for Refunds from Vendors/Contractors. DLA needed to focus
    attention on the types of collections that DFAS Columbus was receiving from its
    vendors and contractors to identify all of its improper payments. During the
    audit, DLA officials indicated DLA would establish a process to identify and
    report any improper payments. They stated the process would include a method
    to compile the amount of collections on DLA contracts, identify the cause, and
    report the collections as improper payments.


Transportation Payments

    DLA did not report improper transportation payments including those that might
    be occurring in the PowerTrack system. DLA information showed that some of
    the transportation payments processed through the PowerTrack system were
    improper and should have been included in its reporting.

    We requested the amount of the PowerTrack system refunds processed by the
    Defense Distribution Depot Susquehanna during a 1-year period starting
    February 3, 2006. Personnel at this depot queried the PowerTrack system and
    identified $252,000 in refunds. We examined 10 refunds valued at $32,521 and
    determined that all 10 were overpayments. Notes contained in the PowerTrack
    system supported our conclusion. For example, on March 23, 2007, this depot
    received an unsolicited refund from Maersk Sealand for $3,639. Documentation
    in the PowerTrack system indicated that the DoD paid the contractor twice for the
    same shipment.

                                        8
           The Office of Internal Review at the Defense Distribution Center initiated an
           audit of the PowerTrack system as a result of the existence of significant
           unresolved and unexplained carrying balances held by distribution depots at both
           Susquehanna, Pennsylvania, and San Joaquin, California. The auditors found that
           DLA did not correct problems with the carrying balances. The auditors noted that
           procedures used by U.S. Bank (the contractor for the PowerTrack system) made a
           full reconciliation between the bank and the Government challenging and
           inhibiting DLA efforts to identify specific short or excess payments.


Fast Pay Procedures

           We reviewed DLA fast pay procedures and examined a DLA Subsistence prime
           vendor contract, which accounted for $1.4 billion of the $4 billon 2 in total
           Subsistence disbursements in FY 2006, to determine whether DLA performed a
           review and identified improper payments. Fast pay reviews, when performed as
           required by the FMR, can identify and recover overcharges.

           We visited the Defense Supply Center Philadelphia (DSCP) to assess fast pay
           reviews that DSCP made in FY 2006. We concluded that DSCP had not fully
           implemented:

               •   DoD FMR, volume 5, chapter 33, section 3306, “Departmental
                   Accountable Officials, Certifying Officers and Review Officials,”
                   April 2005, which requires certifying officers to examine payment
                   vouchers prior to certification, and allows DoD components to use a
                   statistical sampling plan for vouchers in amounts not to exceed $2,500
                   and,

               •   Government Accountability Office (GAO), “GAO Policy and Procedures
                   Manual for Guidance of Federal Agencies,” title 7, chapter 7, May 1993,
                   which requires voucher-examining plans that combine fast pay procedures
                   and statistical sampling to sample all invoices not subject to complete
                   audit coverage. Exceptions, according to GAO, may be authorized, but
                   require justification and approval on a case-by-case basis.

           Fast pay reviews are required to identify potential over charges and to permit their
           recovery by making adjustments to future billings. At the time of the audit, no
           statistically valid fast payment review process was in place.

           Fast pay reviews, when completed as required by the FMR and GAO, can identify
           improper payments. For example, DLA information showed that in FY 2006 the

2
    DSCP Subsistence personnel provided the total Subsistence disbursements for FY 2006.

                                                     9
    DSCP Subsistence prime vendor, Public Warehousing Corporation, owed $14,697
    on three invoices that were improperly paid. However, the total amount
    improperly paid was $27,863: $21,280 overpaid and $6,583 underpaid. DSCP
    sent an e-mail requesting payment for $14,697.

    On another fast payment, a FY 2006 DoD review found that DSCP overpaid C&D
    Distributors $21 million for fraudulently submitted shipping charges. DLA had
    not performed a fast payment review of the contract. As a result of the
    investigation, DLA and DFAS began reviewing records for additional errors.

    DLA officials agreed DLA needs to perform fast payment reviews and that the
    procedures at DSCP associated with reporting overpayments on fast pay contracts
    were inadequate. In addition, DLA officials stated that procedures were similar at
    other locations and were not adequate; they agreed to use a statistically valid
    sampling plan and evaluate “end state” procedures of fast pay for the reporting of
    DLA improper payments.

    DLA has tentatively identified fast pay as one of four improper payment risk
    areas.


Contract Closeout

    To examine whether DLA overpaid contractors and discovered the overpayments
    at contract closeout, we examined closeout procedures at one activity, DSCP.
    DSCP did not reconcile and close contracts as required by Federal Acquisition
    Regulation 4.804, “Government Contract Files,” September 2001. DSCP
    personnel identified 30,587 open contracts. DLA began taking aggressive action
    to reduce its backlog during the audit. We reviewed a judgmental sample of 67 of
    the 226 contracts closed during the audit, valued at approximately $93 million.
    We reviewed DLA documentation for improper payments identified during the
    close out process. For the 67 contracts reviewed, DLA documents showed DLA
    identified $165,377 in overpayments.

    We also reviewed returned checks on closed contracts. We compared the 226
    closed contracts to FYs 2005 and 2006 MOCAS returned-checks data and FYs
    2004, 2005, and 2006 vendor-check collection data. We determined that DFAS
    recorded 40 collections totaling $629,583 on 12 of the DSCP contracts that were
    physically complete. Of the 40 collections, DFAS Columbus provided supporting
    documentation for seven totaling $503,309. The documentation indicated the
    seven resulted from an improper payment. However, seven were not part of DLA
    or DFAS Columbus annual reporting.



                                        10
    During the audit, DLA personnel stated they would investigate the contract
    closeout process, identify policy and procedure issues, and take corrective action
    as required. DLA personnel also stated they would integrate the contract closeout
    process into the DLA Improper Payment Plan.


Management Actions Taken

    During the audit, DLA personnel stated DLA would include information in its
    FY 2008 Financial Statements on improper payments that will explain the status
    of planned actions to identify improper payments. DLA identified four areas at
    risk for significant improper payments: Customer Pay, Integrated Prime Vendor,
    Fast Pay Contracts, and Contract Closeout. DLA agreed to develop an Improper
    Payment Plan that includes documenting the integrated prime vendor, customer
    pay, demand letter and fast pay processes, developing a sampling plan to estimate
    improper payments, and reporting on each of these areas. DLA will also develop
    an action plan to improve its contract-closeout process. As a result, this report
    does not make recommendations and does not require management comments.




                                        11
Appendix A. Scope and Methodology
   We conducted this performance audit in accordance with generally accepted
   government auditing standards. Those standards require that we plan and perform
   the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
   for our findings and conclusions based on our audit objectives. We believe that
   the evidence obtained provides a reasonable basis for our findings and
   conclusions based on our audit objectives.

   We assessed whether DLA complied with the requirements of the Improper
   Payments Information Act of 2002 as established under section 3321, title 10,
   United States Code (31 U.S.C. 3321). The Improper Payments Information Act
   of 2002 and 31 U.S.C. 3321 are further defined by OMB Circular A-123,
   Appendix C, “Requirements for Effective Measurement and Remediation of
   Improper Payments,” August 10, 2006; OMB Circular A-136, “Financial
   Reporting Requirements,” July 24, 2006; and OMB Circular A-136, “Financial
   Reporting Requirements,” June 29, 2007. In addition, we reviewed Federal
   regulations, Government Accountability Office (GAO), DoD, DLA, and DFAS
   policies and procedures for implementing fast pay and contract closeout
   procedures.

   We reviewed an extract of collections received from DLA vendors during 2005
   and 2006. We reviewed the collections using both statistical and judgmental
   methods to determine whether the DFAS annual Improper Payments Information
   Act survey properly identified improper payments. We reviewed DFAS
   Columbus processes to analyze refunds from vendors to identify improper
   payments. We reviewed the DFAS Columbus reporting database to determine
   whether payments were included and reported as improper payments.

   We requested a list of open and expired DSCP contracts as of November 2006
   and March 2007; however, one of the four supply chains located at DSCP could
   not query their information technology system, the Enterprise Business System
   (part of DLA Business System Modernization effort), but provided a list of DSCP
   Subsistence contracts after manually compiling a list. We reviewed a sample of
   226-closed DSCP Subsistence contracts for compliance with the Federal
   Acquisition Regulation’s contract closeout timelines and whether the contract
   files included evidence of potential improper payments.

   For one DSCP Subsistence vendor, we reviewed policies and procedures
   implemented for conducting reviews of fast pay contracts. We reviewed DSCP
   documentation of their reviews from August 2004 to December 2006 to determine
   whether the data was statistically valid in accordance with regulations, and
   whether DSCP reported amounts found in error.

                                       12
    We also requested the amount of refunds processed by Defense Distribution
    Depot Susquehanna during a 1-year period from February 3, 2006, to February
    2, 2007. Personnel at the depot queried the PowerTrack system for refunds and
    identified $252,000 of refunds.

    We performed this audit from December 2006 through December 2007 in
    accordance with generally accepted government auditing standards. Further
    details on organizations visited are available upon request.

    Use of Computer-Processed Data. We did not use computer-processed standard
    reports. Instead, we relied on queries of computer systems that have been shown
    to be unreliable in other audits.

    Use of Technical Assistance. The DoD Office of Inspector General Quantitative
    Methods Directorate assisted with the audit. See Appendix B for detailed
    information about the work performed by the Quantitative Methods Directorate.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the DoD Financial Management and DoD Contract
    Management high-risk areas.


Prior Coverage

    During the last 5 years, the Government Accountability Office (GAO), and the
    Department of Defense Inspector General (DoD IG) issued three reports on the
    Identification and Reporting of Improper Payments. Unrestricted GAO reports
    can be accessed over the Internet at http://www.gao.gov. Unrestricted DoD IG
    reports can be accessed at http://www.dodig.mil/audit/reports.


GAO

    GAO Report No. GAO-07-092, “Agencies’ Fiscal Year 2005 Reporting under the
    Improper Payments Information Act Remains Incomplete,” November 2006




                                        13
DoDIG

   DoD IG Report No. D-2006-094, "Improper Payments for Defense Fuels,"
   June 29, 2006

   DoD IG Report No. D-2005-100, "Identification and Reporting of DoD Erroneous
   Payments," August 17, 2005




                                    14
Appendix B. Sampling Methodology

Universe of DLA Vendor Collections

     The initial population data for DLA vendor collections in 2005 and 2006
     contained 28,237 records totaling $1.835 billion. We removed 25,991 payments
     (collections) totaling $217.8 million that were less than $100,000, leaving 2,246
     payments totaling $1.618 billion from which we drew our sample. We selected
     300 sample items using a stratified random sample design based on the dollar
     amount of each payment. We stratified the payments into a mutually exclusive
     strata based on dollar amount. We randomly selected all payments in the sample
     without replacement from the population using JMP 7.0 software. See Table B-1
     for our sample size and universe dollars.

                       Table B-1. Universe and Sample Size
                                   ($ in million)

          Stratum              Sample        Sample        Population     Population
                                Size         Dollars           Size        Dollars
  >$5 million                   46          $498.03            46          $498.03
  >$1 million to $5 million    150           272.26           341           625.80
  >$500k to $1 million          30            20.05           221           155.36
  $100k to $500k                74            15.44         1,638           338.96
  Totals                       300          $805.78         2,246         $1618.15



Projection of Sample

     Based on the audit results, our statisticians calculated the dollar errors shown in
     Table B-2 at a 95-percent confidence level.

                        Table B-2. Projected Dollar Errors
                                   ($ in million)
                          95-Percent Confidence Level

      Type Error              Lower Bound      Point Estimate     Upper Bound
      Solicited Refund           $ 6.13           $16.29             $26.44
      Unsolicited Refund         $19.38           $42.19             $65.00
      All Errors                 $33.73           $58.48             $83.22



                                          15
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Combatant Commands
Inspector General, U.S. Joint Forces Command

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Finance and Accounting Service
Director, Defense Logistics Agency




                                          16
Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs, Committee on Oversight
  and Government Reform




                                        17
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Patricia A. Marsh
Curt W. Malthouse
John H. Gartland
Barry N. Harle
John R. Williams
Daniel L. Messner
Lusk F. Penn
Erin S. Hart
